CERTIFICATE OF WORD COUNT
No. TBD
Amadou Sowe,
^Petitioner(s)^
v.
Pall Corporation,
Respondent(s).
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That 1 am over the age of 18 years and am not a party to this action. I am an employee of the
Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the Amadou Sowe
Petition for Writ of Certiorari contains 1819 words, including the parts of the brief that are
required or exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Dan Abramovich

October 7, 2019
SCP Tracking: Sowe-1296 Sheridan Avenue #2K-Cover White

